IN THE SUPREME COURT OF THE UNITED STATES

MOTION TO PROCEED IN FORMA PAUPERIS

ROBRT McMILLIAN,

PETITIONER

UNITED STATES OF AMERICA

Respondent

MOTION TO PROCEED IN FORMA PAUPERIS

Steven R. Kiersh

DC Bar #323329

5335 Wisconsin Avenue, N.W.
Suite 440

Washington, D.C. 20015

(202) 347-0200

Attorney for Petitioner
Appointed pursuant to the
District of Columbia Criminal
Justice Act

Member of the Bar of the
Supreme Court of the United
States

 
MOTION TO PROCEED IN FORMA PAUPERIS

Petitioner, Robert McMillian, by and through undersigned counsel, does
hereby seek leave to proceed in forma pauperis. In support thereof, Petitioner
respectfully sets forth as follows:

1. Undersigned counsel represented Petitioner before the District of Columbia
Court of Appeals pursuant to the District of Columbia Criminal Justice Act, Pub. L.
No. 105-277, Stat.2681-122 in case No.: 18-CO-0107. Petitioner had appointed
counsel before the District of Columbia Superior Court in Case No.: 2006 CF1
023454. The attached Petition for Writ of Certiorari seeks review of the
proceedings that were conducted before the District of Columbia Court of
Appeals and the Superior Court of the District of Columbia

2. An affidavit for Petitioner detailing his financial situation has been delayed due
to the difficulties in communicating via regular mail with the Bureau of Prisons. As
soon as the affidavit is received it will be added to this pleading. Petitioner has
been incarcerated since 2006 and his status as an indigent person has not
changed during the years of his incarceration.

3. Petitioner relies upon Rule 39 of the Rules of this Court in seeking the relief
requested herein.

Respectfully submitted,

/s/

Steven R. Kiersh

DC BAR #323329

5335 Wisconsin Avenue, N.W.

Suite 440

Washington, D.C. 20015

(202) 347-0200

 
CERTIFICATE OF SERVICE

| HEREBY CERTIFY that a true and accurate copy of the foregoing was
mailed, postage prepaid on this the 21st day of July 20, 2021 to the Office

of the Office of the Solicitor General, Department of Justice, Room 5614, 950
Pennsylvania Avenue, N.W., Washington, D.C. 20530.

—__/s/

Steven R. Kiersh
